Audit of USAID/Guatemala-Central American
Program’s (G-CAP) Training, Use and Accountability
of Cognizant Technical Officers (CTOs)


Audit Report Number 9-596-03-007-P

July 10, 2003




                Washington, D.C.
July 10, 2003


MEMORANDUM
FOR:            USAID/Guatemala-Central American Program
                (USAID/G-CAP) Director, Glenn E. Anders and Regional
                Contracting Officer, Braden W. Enroth

FROM:           Acting Director, IG/A/PA, Roosevelt Holt /s/

SUBJECT:        Report on Audit of USAID/Guatemala-Central American
                Program’s Training, Use and Accountability of Cognizant
                Technical Officers (Report No. 9-596-03-007-P)

This memorandum transmits our final report on the subject audit. This
report includes four recommendations to help USAID/G-CAP improve
CTO training and to hold CTOs accountable for the performance of their
CTO tasks. In finalizing this report, we considered your comments on
our draft report and have included this response as Appendix II.

Based on your written comments, we consider all four recommendations to
have received a management decision. Information related to your final
action on these recommendations should be provided to USAID’s Office
of Management Planning and Innovation.

I want to express my sincere appreciation for the cooperation and
courtesies extended to my staff during the audit.
This page is intentionally left blank




                                        2
Table of   Summary of Results.....................................................................................5
Contents
           Background ..................................................................................................5

           Audit Objectives ..........................................................................................6

                      Did USAID/G-CAP provide adequate training
                      and guidance to its Cognizant Technical Officers
                      to help ensure that they were aware of and
                      capable of performing their responsibilities?...................................7

                                 Mission Needs to Provide CTO Training ..............................7

                      Did USAID/G-CAP hold its Cognizant
                      Technical Officers accountable for performing
                      their responsibilities in accordance with
                      USAID policies and regulations?...................................................11

                                 Mission Needs to Evaluate CTO Performance ..................11

           Management Comments and Our Evaluation ............................................14

           Appendix I - Scope and Methodology .......................................................15

           Appendix II - Management Comments......................................................17




                                                                                                                       3
This page is intentionally left blank




                                        4
Summary of    An important member of any USAID acquisition or assistance team is its
Results       Cognizant Technical Officer (CTO). It is the CTO's responsibility to
              ensure, through liaison with the contractor or grant recipient, that the
              terms and conditions of the acquisition and assistance instrument are
              accomplished. (See page 5.)

              As part of the OIG's multi-year strategy for auditing USAID procurement
              activities, the Performance Audits Division of the Office of Inspector
              General conducted this audit to determine whether USAID/Guatemala-
              Central American Program (USAID/G-CAP) provided adequate training
              and guidance to its CTOs and held them accountable for performing their
              responsibilities. (See page 6.)

              The audit found that USAID/G-CAP lacked a system to identify the
              training needed by its CTOs and had not provided them the training they
              needed to acquire core competencies or to understand and perform the full
              range of tasks assigned to them. (See page 7.) In addition, contrary to
              USAID policies and regulations, USAID/G-CAP lacked a process to
              formally hold CTOs accountable for the performance of the tasks assigned
              to them, and the performance evaluations for most CTOs did not cover
              their duties. (See page 11.)

              This report includes four recommendations to help USAID/G-CAP
              improve CTO training and to hold CTOs accountable for the performance
              of their tasks. (See pages 10 and 13.)

              The Mission’s comments are included in their entirety in Appendix II.
              USAID/G-CAP stated that it concurred with the audit findings and
              recommendations and has or will take specific actions to implement the
              recommendations. However, in addition to the Mission’s concurrence, it
              expressed concerns over the form and adequacy of the Agency’s current
              CTO training and certification. The Mission stated that some of their
              CTOs had previously taken two of the four original CTO core courses, yet
              these CTOs still felt unprepared and indicated the need for more training.
              Based on the Mission’s written comments, we consider all four
              recommendations to have received a management decision. (See pages 14
              and 17.)


 Background   As a practical matter, contracting/agreement officers rarely have sufficient
              time or the necessary expertise in critical technical or program areas to
              single-handedly     ensure      successful    contract/grant    completion.
              Contracting/agreement officers, therefore, have been instructed to
              designate a properly trained individual to serve as the Cognizant Technical



                                                                                        5
                   Officer (CTO) for each contract or grant award.1 CTOs serve as an
                   important member of any acquisition or assistance team. It is the CTO's
                   responsibility to ensure, through liaison with the contractor or grant
                   recipient, that the terms and conditions of the acquisition and assistance
                   instrument are accomplished. A formal designation letter, which may
                   follow a standard format, delineates the specific actions the CTO can
                   perform with respect to the award and is effective for the life of the
                   instrument, unless rescinded in writing by the contracting/agreement
                   officer.

                   As of October 2002, USAID/G-CAP had 24 designated CTOs, and
                   according to information provided by the Mission's contracting office,
                   they were responsible for managing contracts, grants and cooperative
                   agreements estimated at $179 million. Three of the 24 were U.S. Foreign
                   Service Officers. Two of the 24 were employed as Technical Advisors in
                   AIDS and Child Survival (TAACS). Nineteen of the 24 were employed as
                   personal services contractors (PSC). Of the 19 PSCs, twelve were local
                   nationals, six were U.S. citizens, and one was a third country national.

                   At USAID/G-CAP, each CTO was assigned to a strategic objective team.
                   An individual who was selected to be a CTO usually first became involved
                   with the contract or grant during its pre-award phase. The individual was
                   later selected to serve as the CTO because of his/her technical knowledge
                   of the program. Selected individuals then received designation letters
                   from the contracting/agreement officer that detailed the specific tasks that
                   they were authorized to perform. These letters were not identical but were
                   modified slightly for the type of award and the position of the person
                   serving as the CTO. At USAID/G-CAP, CTOs usually work on two to
                   three awards at a time.



Audit Objectives   This audit was conducted as part of the OIG's multi-year strategy for
                   auditing USAID’s procurement activities.

                   The audit was conducted to answer the following questions:

                   • Did USAID/G-CAP provide adequate training and guidance to its
                     Cognizant Technical Officers to help ensure that they were aware of and
                     capable of performing their responsibilities?

                   1
                     As defined within the Office of Procurement's Desk Guide, the term, CTO, is used by
                   USAID in lieu of other federal terms such as "Contracting Officer’s Technical
                   Representative (COTR)" or "Contracting Officer’s Representative (COR)" and denotes
                   that CTOs can be responsible for grants as well as contracts. When acting within the
                   scope of the delegated authority, the CTO binds the U.S. Government as surely as the
                   contracting or grant officer.


                                                                                                      6
                 • Did USAID/G-CAP hold its Cognizant Technical Officers accountable
                   for performing their responsibilities in accordance with USAID policies
                   and regulations?

                 Appendix I contains a discussion of the audit's scope and methodology.
                 (Page 15)



Audit Findings   Did USAID/G-CAP provide adequate training and guidance to its
                 Cognizant Technical Officers to help ensure that they were aware of
                 and capable of performing their responsibilities?

                 USAID/G-CAP did not provide enough training to its CTOs to ensure that
                 they not only understood the full range of assigned tasks but also had the
                 competence and confidence to perform these tasks successfully. CTOs
                 responding to a questionnaire reported that they needed additional training in
                 the basic competencies established by USAID.                    Additionally,
                 contracting/agreement officers reported that CTOs could benefit from
                 training in the following areas: award administration, limits on authorities,
                 financial management and budget processes, proposal evaluation techniques,
                 procurement regulations, and USAID policies and procedures. The need for
                 the Mission to provide CTO training is further discussed below.

                 Mission Needs to Provide CTO Training

                 USAID/G-CAP did not provide enough training to its CTOs to ensure that
                 they understood and could perform the tasks assigned to them. Of the 24
                 CTOs working at USAID/G-CAP, 21 reported that they needed training in
                 specific competencies needed to perform their tasks. Contrary to its own
                 requirements and those published by the Office of Federal Procurement
                 Policy (OFPP), USAID/G-CAP had not prepared annual training plans for
                 its CTOs and had not developed a system to ensure that they received
                 appropriate training. As a result, the Mission’s CTOs required additional
                 training to equip them with the knowledge and skills needed to adequately
                 perform core responsibilities.

                 OFPP Policy Letter No. 97-01, dated September 12, 1997, requires
                 agencies to (1) identify and publish model career paths, (2) establish
                 education, core training, and experience requirements for their acquisition
                 workforce, and (3) develop a mandatory education, training and
                 experience requirements to ensure that individual members of the
                 workforce possess core competencies required of the position. According
                 to OFPP the “acquisition workforce” includes contracting and purchasing
                 officers, contracting officer representatives (CORs), and contracting
                 officer technical representatives (COTRs) and “core competencies” are



                                                                                             7
those in the Federal Acquisition Institute’s COR/COTR Workbook.
USAID’s CTO is comparable to OFPP’s COR and COTR.

USAID's Automated Directive System 202.3.1.2 acknowledges OFPP’s
training requirements and discusses how USAID officials should comply
with them. However, it also recognizes that that there may be times when it
is necessary to nominate an individual to become a CTO who does not
have the mandatory training required by OFPP. In these cases, the
operating unit should develop a written plan that allows the individual to
receive the necessary training as quickly as possible in order to obtain
these competencies and subsequent certification.

USAID has developed a series of courses designed to provide CTOs the
basic knowledge and skills they need to effectively administer contracts
and assistance instruments. After completing these classes, CTOs are
certified. The first classes of the new curriculum were held in October
2002 and schedules for fiscal year 2003 were advertised. Missions were
instructed to contact USAID's Learning Support Training Division in
order to arrange training for their CTOs.

At the time of the audit, USAID/G-CAP had a training policy that required
office chiefs to develop annual training plans for all U.S. direct hire
employees and all U.S. and foreign national personal services contractors.
Office chiefs were required to request input from the Strategic Objective
team leaders on training needs and opportunities for all employees and
submit an annual training plan for their offices to the Mission Personnel
Office by January 31.

Although the Mission had provided an overview of acquisition and
assistance processes to its CTOs, the training was not sufficient to enable
individuals to understand the full extent (and limits) of their authority and
responsibilities. Twenty-one of USAID/G-CAP's CTOs responded to an
OIG questionnaire that asked their opinions related to the training they had
received or needed. As shown in the following table, a significant number of
the respondents believed that they still needed training specific to certain
core competencies.




                                                                           8
Table 1: List Showing the Number and Percentage of CTOs Who
Said They Needed Additional Training to Demonstrate Selected
Competencies Needed to Administer Contracts, Grants, or
Cooperative agreements.

                                                                                CTOs Who Said
                                                                                 They Needed
                                                                                More Training
                                                                  No. of CTOs
                                                                  Responding     No.     %
            Required Competencies for Contracts
Knowledge of contracting law and regulations                          21         16      76
Knowledge of contracting ethics including conflicts of interest
and security of information                                           21         15      71
Ability to develop contract requirements, conduct market
research, and prepare requirements documents and statements
of work                                                               21         18      86
Ability to request/assess bid and proposals                           21         19      90
Ability to conduct price and cost determinations                      21         17      81
Ability to monitor contractor performance                             21         16      76
Ability to process contracting actions                                21         18      86
Knowledge of documentation requirements including tracking
orders, deliverables, timesheets, and other record keeping            21         18      86
Ability to close-out, terminate contract appeals and protests         21         18      86
Ability to administratively approve vouchers for payment              21         17      81
              Required Competencies for Grants
                 and Cooperative Agreements
Knowledge of elements of an award                                     16         12      75
Knowledge of USAID's policy on competition                            21         16      76
Knowledge of types of assistance instruments                          21         17      81
Knowledge of USAID Source Origin/Nationality
Requirements                                                          20         17      85
Ability to process closeout procedures                                20         17      85
Ability to monitor and evaluate recipients' performance               21         14      67
Ability to review and analyze performance and financial
reports and verify timely delivery                                    21         16      76


Compounding the lack of relevant training was the fact that none of
USAID/G-CAP’s program offices had submitted annual training plans to
the Mission Personnel Office’s training officer as required by the Mission
Order. Furthermore, USAID/G/CAP did not have a written plan as to how
individual CTOs would obtain the training they needed to obtain core
competencies and become certified.

CTOs, who understand their roles and responsibilities, contribute to a
correct and efficient procurement process. Contract and agreement
officers who worked directly with USAID/G-CAP CTOs described
examples of the problems that occurred because CTOs had not fully
understood the responsibilities and authorities delegated to them. For
example, on occasion CTOs had inappropriately approved actions without
the prior approval of the Contracting Officer, which in one instance
required the Contracting Officer to subsequently modify the contract.


                                                                                              9
Additionally, in some offices, CTOs had improperly delegated some of
their duties (routine financial and reporting responsibilities) to project
assistants. Although this practice may have ensured that CTO duties were
performed, it was inappropriate. CTO designation letters state that the
CTO may not reassign his/her authority to approve/disapprove vouchers,
provide written interpretations of technical requirements, or certify
acceptance of goods or services.

A USAID/G-CAP official stated that offices had not followed the Mission
Order with respect to CTOs because program offices had other priorities.
Additionally, the Mission had not arranged for its CTOs to attend the
training provided by USAID’s Office of Human Resources, Learning
Support Division because the contracting officer had previously provided
two weeks of CTO-related training and planned to assist with the
remaining courses. The contracting officer completed a USAID adult
training methodologies course to support the Mission’s CTO training
program. However, recently revised USAID policy allows contracting
officers to act only as subject matter experts under the new CTO
certification training program and not as primary instructors.

In summary, when untrained CTOs do not perform their duties properly or
on a timely basis, the contract/grant officer or other contracting office staff
member must ultimately complete or correct the CTO’s work, which
interferes with the performance of his/her own workload. Untrained CTOs
might also act outside the authorities delegated to them or inappropriately
delegate some administrative responsibilities to individuals who are not
designated CTOs. If CTOs are expected to perform critical tasks
efficiently and without errors, and they will be held accountable for
performing these tasks (see the next section of this report), they must be
fully aware of their responsibilities and have the requisite competencies to
perform them.

       Recommendation No. 1:          We recommend that
       USAID/Guatemala-Central American Program develop
       training plans for all Cognizant Technical Officers, in
       accordance with the Office of Federal Procurement
       Policy Letter No. 97-01 and USAID/G-CAP’s Training
       Policy.

       Recommendation No. 2:       We recommend that
       USAID/Guatemala-Central American Program make
       arrangements for its CTOs to attend the training
       required by USAID's Office of Human Resources,
       Learning Support Division for Cognizant Technical
       Officer certification.




                                                                            10
Did USAID/G-CAP hold its Cognizant Technical Officers accountable
for performing their responsibilities in accordance with USAID
policies and regulations?

USAID/G-CAP did not hold most of its CTOs accountable for performing
their responsibilities. Contrary to federal and USAID guidance, the
mission did not establish performance measures for critical CTO tasks.
Position descriptions, annual work plans, or annual work objectives did
not, in all cases, include CTO duties and responsibilities. As a result,
CTOs were not evaluated as to how well they performed their duties.
Furthermore, the Mission did not ensure that office chiefs or others who
evaluated the performance of individual CTOs contacted knowledgeable
contract/agreement officers for input as to the CTO’s performance. The
importance of building accountability into the evaluation process for
CTOs is further addressed below.

Mission Needs to Evaluate CTO Performance

Even though CTOs play a critical role in the acquisition and assistance
process, USAID/G-CAP did not hold most of its CTOs accountable for
performing their responsibilities. This occurred because more emphasis
was placed on an individual’s program management skills and
performance than on his or her CTO competencies and performance. As a
result, USAID/G-CAP lacked proper measures to hold people accountable
for properly performing the critical tasks that help ensure contractor and
grantee compliance with contractual and administrative requirements.

According to the Office of Personnel Management2, performance
management is the systematic process of planning work, setting
expectations, continually monitoring performance, developing the capacity
to perform, periodically rating performance in a summary fashion, and
rewarding good performance. A critical element of this process, therefore,
is the establishment of performance expectations for critical tasks that can
later be evaluated.

USAID policies require the performance of USAID’s employees and
personal services contractors to be evaluated.

      •   USAID's Automated Directive System 462 requires supervisors to
          work with U.S. direct hire employees to develop annual employee
          performance plans that contain work objectives and performance
          measures for critical tasks against which actual performance will
          be compared.



2
    A Handbook Measuring Employee Performance, revised January 2001.


                                                                         11
   •   The Foreign Affairs Handbook, 3-FAH-2 H-400, requires USAID
       to prepare position descriptions for Foreign Service National
       employees, which will serve as the basis for performance
       evaluations.

   •   The Foreign Affairs Manual, 3 FAM 7260, states that personal
       services contracts with host country nationals or third country
       nationals must conform to requirements for Foreign Service
       National employees.

In each case, performance elements and standards should be measurable,
understandable, verifiable, equitable, and achievable.

As of October 2002, 24 individuals, working under different employment
mechanisms at USAID/G-CAP, were designated as CTOs. Most of these
individuals were also responsible for the programmatic and administrative
management of a USAID activity.

Although different personnel policies regulate the performance evaluation
of CTOs in different employment categories, there is an underlying
requirement that all employees should be evaluated on the actual duties
they are expected to perform. Sixteen CTOs who responded to an OIG
questionnaire stated they spent more than half their time performing CTO
responsibilities. However, despite the importance of and the amount of
time spent on CTO-related activities, 12 of the 16 did not have work plans,
statements of work, or work objectives that clearly delineated the scope of
and standard of performance expected for their CTO duties. This
condition was particularly prevalent for CTOs employed as personal
services contractors—the employment category for 19 of
USAID/Guatemala-G/CAP’s 24 CTOs. Of the 12 CTOs who could not be
held accountable for their CTO duties:

           Nine had work objectives that focused only on their
           responsibilities as advisor, strategist, USAID representative, or
           activity implementer--four of nine were local national PSCs,
           one was a USPSC, one was a TAAC, and three were U.S.
           direct hires.
           One USPSC had work objectives that referred only to
           monitoring activities.
           One USPSC and one non-U.S. PSC did not have any work
           objectives.

Additionally, the Mission did not ensure that individuals who prepared
performance evaluations for CTOs solicited comments from individuals
who were most likely to have information on the performance of CTO



                                                                         12
tasks—staff in the contracting office.         Although USAID/G-CAP
encouraged supervisors of CTOs who were foreign national employees
and personal services contractors to obtain and consider comments from a
variety of sources—including employee self-assessments, peers,
recipients, members of strategic objective teams, and subordinates—
supervisors were not specifically required to solicit comments related to
the performance of CTO tasks. As a result, the supervisors did not ask for
feedback from the contracting office regarding the CTOs’ performance of
CTO tasks.

USAID/G-CAP not only gave greater weight to program management
competencies than to contract/grant administration (CTO) competencies
when evaluating CTO performance, but also when hiring CTOs. Position
descriptions for U.S. and foreign national personal services contractors
stressed the need for education and experience in the areas of economic
growth, agricultural, global health, and democracy. Four PSCs stated that,
when they were hired, they did not understand that their positions would
include CTO-related responsibilities.

CTOs play a significant role in the successful and efficient implementation
of the contracts and grants through which USAID expects to achieve its
program goals. Therefore, it is important that CTOs are not only aware of
and qualified to perform their tasks, (see preceding section) but also held
accountable for the execution of these tasks. The accountability of CTOs
could be improved if USAID/G-CAP implemented the following
recommendations.

       Recommendation No. 3:            We recommend that
       USAID/Guatemala-Central          American       Program
       incorporate Cognizant Technical Officer duties and
       responsibilities into the position descriptions, work
       objectives, or statements of work of each individual
       designated to serve as a Cognizant Technical Officer.

       Recommendation No. 4:            We recommend that
       USAID/Guatemala-Central American Program require
       supervisors to obtain comments on each Cognizant
       Technical Officer’s performance of Cognizant Technical
       Officer tasks from the Contracting Office, and other
       pertinent sources, as part of each Cognizant Technical
       Officer’s periodic performance evaluation.




                                                                        13
Management       In response to our draft audit report, USAID/G-CAP provided written
Comments and     comments that are included in their entirety as Appendix II. USAID/G-
Our Evaluation   CAP stated that it concurred with the audit findings and recommendations
                 and has or will take specific actions to implement the recommendations.
                 However, in addition to the Mission’s concurrence, it expressed concerns
                 over the form and adequacy of the Agency’s current CTO training and
                 certification. USAID/G-CAP noted that the Agency still has no formal
                 statement of the required competencies for certification. In addition, the
                 Mission stated that some of their CTOs had previously taken two of the
                 four original CTO core courses, yet these CTOs still felt unprepared and
                 indicated the need for more training.

                 Based on the Mission’s written comments, we consider all four
                 recommendations to have received a management decision. Information
                 related to your final action on these recommendations should be provided
                 to USAID’s Office of Management Planning and Innovation.




                                                                                        14
                                                                             Appendix I


Scope and     Scope
Methodology
              The Performance Audits Division of the Office of Inspector General
              conducted this audit in accordance with generally accepted government
              auditing standards. This audit was designed to answer the following
              questions: Did USAID/G-CAP provide adequate training and guidance to
              its Cognizant Technical Officers to help ensure that they were aware of
              and capable of performing their responsibilities? Did USAID/G-CAP
              hold its Cognizant Technical Officers accountable for performing their
              responsibilities in accordance with USAID policies and regulations?
              These issues had been only broadly addressed in past audit reports.

              In planning and performing the audit, we obtained an understanding of and
              tested management controls related to (1) the identification of the tasks to
              be performed by CTOs, (2) the identification of training needed by CTOs,
              (3) the provision of training to CTOs, (4) the establishment of work
              objectives and performance measures for CTOs, and (5) the evaluation of
              CTO performance. We conducted interviews with key USAID/G-CAP
              personnel.    In addition, we reviewed pertinent employee-related
              documentation.

              We conducted the audit at USAID/G-CAP located in Guatemala City,
              Guatemala. The audit fieldwork was conducted from October 21 through
              November 1, 2002.

              Methodology

              To answer both audit objectives we designed and administered a
              questionnaire to gather information from the CTOs in USAID/G-CAP.
              Through the questionnaire we obtained information on the CTOs’
              background, training, and experience performing their tasks. As of
              October 2002, USAID/G-CAP had 24 individuals designated as CTOs.
              The questionnaire was distributed to all 24 CTOs and 21 responded. We
              did not develop materiality thresholds for the audit objectives.

              In addition to distributing the questionnaire and analyzing the resulting
              responses, we interviewed CTOs and personnel from the contracting
              office. We judgmentally selected 16 of the 24 CTOs to interview. The
              interviews provided us with an understanding of how CTOs performed
              their tasks and their level of understanding of what was expected of them.

              To answer the second objective, we reviewed pertinent employee
              evaluation documents. We reviewed position descriptions, work



                                                                                      15
objectives and statements of work for the 16 CTOs interviewed. We
analyzed these documents to determine if work plans, statements of work,
or work objectives adequately delineated the scope and expected standards
for performance of their CTO duties.




                                                                      16
                                                                          Appendix II

Management
Comments:




                                                  July 3, 2003


             MEMORANDUM
             TO:           Acting IG/A/PA, Darren Roman

             FROM:         USAID/G-CAP Director, Glenn E. Anders

             SUBJECT: USAID/Guatemala-Central American Program’s Audit
             Response to; Training, Use and Accountability of Cognizant Technical
             Officers (Report No. 9-596-03-00X-P)


             This is in response to your email dated May 27, 2003, transmitting the
             draft audit report on Training, Use and Accountability of Cognizant
             Technical Officers.

             In general, we have to concur with the findings and recommendations of
             the Audit and have or are taking specific actions to implement the
             recommendations.

             However, we would like to add to our concurrence, our concerns over the
             form and adequacy of the Agency’s current CTO training and
             certification. The Agency’s CTO training was recently modified to the
             completion of only two formal classroom trainings (from previously four).
             As of yet, the Agency still has no formal statement of the required
             competencies for certification. This leaves us in a situation where we
             must depend heavily on ‘experience’ or on-the-job training to complement
             the current reduced formal training. It appears to us that the CTO training
             survey conducted reflects an unfortunate situation on CTO preparedness: a
             high percentage of the respondents had taken two of the original four core
             courses, Acquisition and Assistance (A&A) for CTO and Assistance



                                                                                     17
Management for CTOs where they received an overview of CTO
responsibilities in the Acquisition & Assistance course and a concentrated
course in assistance responsibilities. Yet, these respondents still felt that
they needed more training in these areas. These two courses represented
the entirety of formal CTO training in assistance offered by the Agency,
and yet those trained still felt unprepared. This points to a larger Agency
issue with CTO training. While in conformance with audit
recommendations we can formalize this CTO training within our
personnel systems, etc. the issue remains over the relevance and adequacy
of the current training offered CTOs.

The following are the Missions proposed actions in addressing each of the
recommendations contained in the draft audit report:

Recommendation No. 1: We recommend that USAID/Guatemala-
Central American Program develop training plans for all Cognizant
Technical Officers, in accordance with the Office of Federal
Procurement Policy Letter No. 97-01 and USAID/G-CAP’s Mission
Order No. 29.4.

The Mission’s Executive Office will provide clear guidance to all
Strategic Objective team leaders via USAID/G-CAP General Staff Notice
on the need to comply with the requirement to develop and implement an
appropriate training plan as specified in Mission Order 4.8 Training
policy. Upon submission to RIG/San Salvador of the above referenced
Staff Notice, USAID/G-CAP will request closure of this recommendation.
(Note: The correct Mission Order is 4.8 Training Policy not referenced 29.4
PARTICIPANT/TRAINING        AND     ORGANIZATIONAL         PERFORMANCE
IMPROVEMENT.)

Recommendation No. 2: We recommend that USAID/Guatemala-
Central American Program make arrangements for its CTOs to attend
the training required by USAID's Office of Human Resources, Learning
Support Division for Cognizant Technical Officer certification.

The Mission is currently engaged in discussions with Washington CTO
Training Coordinator to schedule the required two CTO trainings in
October and November of this year. Upon confirmation from Washington
of the two requested CTO courses, USAID/G-CAP will request closure of
this recommendation.

Recommendation No. 3: We recommend that USAID/Guatemala-
Central American Program incorporate Cognizant Technical Officer
duties and responsibilities into the position descriptions, work
objectives, or statements of work of each individual designated to serve
as a Cognizant Technical Officer.



                                                                          18
Recommendation No. 4: We recommend that USAID/Guatemala-
Central American Program require supervisors to obtain comments on
each Cognizant Technical Officer’s performance of Cognizant
Technical Officer tasks from the Contracting Office, and other
pertinent sources, as part of each Cognizant Technical Officer’s
periodic performance evaluation.

As part of the performance appraisal process, USAID/G-CAP will issue
instructions via a USAID/G-CAP General Staff Notice requiring Supervisors
to update work objectives to include CTO responsibilities and that
appropriate 360 degree feedback be obtained from Officers (RCOs included)
on the performance of CTOs in discharging their specific duties. Upon
issuance of the Staff Notice, USAID/G-CAP will request closure of
Recommendations 3 and 4.

USAID/G-CAP appreciates the professionalism displayed by the RIG staff
in performing this audit. Implementation of the recommendations will help
ensure a better performing Mission and achievement of results.




                                                                      19
